                   United States Attorney Donald J. Cazayoux, Jr.
                            Middle District of Louisiana

FOR IMMEDIATE RELEASE                             CONTACT: WALT GREEN
TUESDAY, MARCH 20, 2012                           (225) 389-0443
WWW.USDOJ.GOV/USAO/LAM                            FAX: (225) 389-0561

                    FLORIDA MAN SENTENCED FOR WIRE FRAUD
                       AND AGGRAVATED IDENTITY THEFT


        BATON ROUGE, LA – United States Attorney Donald J. Cazayoux, Jr. announced that
ARNOLD H. THOMAS, 47, of Fernandina Beach, Florida, was sentenced today by United
States District Court Chief Judge Brian A. Jackson to 94 months imprisonment and ordered to
pay $1,254,533 in restitution. THOMAS had previously pled guilty pursuant to a plea agreement
to one count of wire fraud and one count of aggravated identity theft.
       According to the plea agreement filed with the Court, THOMAS devised a scheme to
defraud the Louisiana Workforce Commission by fabricating wage reports for various
individuals and then later filing false applications for unemployment benefits in those names.
Some of the individual identities used by THOMAS were stolen. In all, THOMAS submitted
approximately 392 false applications resulting in a loss of approximately $1,254,533.
        United States Attorney Donald J. Cazayoux, Jr. stated, “This significant sentence serves
as a reminder of our office’s strong commitment to hold accountable anyone who defrauds our
public assistance programs for their personal gain.”
       “Today’s sentencing highlights our efforts to investigate fraud against the Department of
Labor’s Unemployment Insurance (UI) programs. The defendant falsely submitted quarterly
wage reports in the names of fictitious companies, illegally used the names of third-party
individuals and failed to pay related employment taxes in order to receive UI benefits for
considerable personal financial gain. The Office of Inspector General and its law enforcement
partners remain committed to combating these types of crimes,” said David C. Wickersham,
Special Agent-in-Charge for the Dallas Regional Office of the U.S. Department of Labor’s
Office of Inspector General, Office of Labor Racketeering and Fraud Investigations.
       The investigation of THOMAS was conducted by the United States Department of Labor
– Office of Inspector General and the Social Security Administration – Office of Inspector
General, with the assistance of the Louisiana Workforce Commission. The case was prosecuted
by Assistant United States Attorney Rich Bourgeois who serves as Deputy Criminal Chief.


                                               ###
